                            SOCIAL SECURITY
                                                                       Inspector General

                                   October 27, 2003

The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

I am pleased to provide you with the enclosed report addressing your August 11, 2003
letter, asking our Office to determine whether the Social Security Administration (SSA)
is properly including military wage credits when calculating benefits. This report
contains information related to:

   •   the number of military veterans receiving SSA benefits,
   •   the complexities of the legal and regulatory environment,
   •   potential SSA systems limitations that need to be considered in correcting
       underpayments/overpayments,
   •   the status of any open Office of the Inspector General recommendations from
       previous reviews of military earnings, and
   •   SSA’s planned approach to resolve any underpayments/overpayments.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Douglas Cunningham, Executive Assistant, at (202) 358-6319.

                                            Sincerely,




                                            James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT
TITLE II BENEFICIARIES WITH
    MILITARY EARNINGS
         A-03-04-24049




        OCTOBER 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                 Background
On August 11, 2003, the Chairman of the Subcommittee on Social Security requested
the Office of the Inspector General (OIG) review the following:

    1. The status of ongoing efforts in the Social Security Administration (SSA) to ensure
       members of the military and their families receive proper accounting of their
       military wage credits toward benefits;

    2. The estimated number of members of the military and their eligible family
       members who may be affected by failure to properly use military wage credits as
       well as the potential impact on their benefits; and

    3. The potential amount of under- and overpaid benefits related to inappropriate
       application of military wage credits.

This report contains information related to our initial survey of this area. We anticipate
additional military earnings work in the future to fully address all of the above questions.
This particular report will address:

    •   the number of military veterans receiving SSA benefits,
    •   the complexities of the legal and regulatory environment,
    •   potential SSA systems limitations that need to be considered in correcting
        underpayments/overpayments,
    •   the status of any open OIG recommendations from previous reviews of military
        earnings, and
    •   SSA’s planned approach to resolve any underpayments/overpayments.

MILITARY SERVICE AND SOCIAL SECURITY

Military personnel have been covered under Social Security since 1957.1 Although
Social Security benefits are based on average lifetime earnings, members of the military
receive special credits that augment their earnings for the purpose of computing Social
Security benefits. The Congress enacted special credits because it believed that the
military earnings reported to SSA were too low, and that, without the credits, Social
Security benefits for veterans and their dependents would also be too low. Congress
has also provided special credits for veterans who served before the military was
brought under the Social Security system.




1
  Servicemen’s and Veterans’ Survivor Benefits Act, Public Law No. 84-881, August 1, 1956; Amended
the Social Security Act by extending regular contributory coverage under the old-age and survivors
insurance program to members of the uniformed services on active duty after 1956.


Title II Beneficiaries with Military Earnings (A-03-04-24049)                                        1
The OIG has released two reports in recent years on military earnings. In September
1997, we released a report entitled Payment Accuracy Task Force: Earnings Record
Issue Team2 that made 18 recommendations to improve the earnings process, 13 of
which related directly to problems with military earnings. The report noted that military
service earnings errors accounted for the largest dollar amount, about 60 percent, of all
earnings record errors caused by field offices. In Fiscal Year 1995, military service
errors accounted for $52.6 million (30 percent) of the $166.1 million in projected
earnings errors related to the Title II retirement program. These type of errors could
impact SSA’s dollar accuracy of Title II payments—one of the Agency’s performance
indicators.3

The 1997 report highlighted problems in the following areas:

    •   Ensuring that military wages are posted properly;
    •   Allowing claimants to verify military service dates;
    •   Obtaining evidence of military service;
    •   Preventing the exclusion of post-1956 military service;
    •   Identifying reserve and National Guard service;
    •   Identifying military service using SSA’s records; and
    •   Establishing clear military service policies for use by field offices.

In October 2002, we released a Congressional Response Report entitled Status of
Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997
Through 2000 Payment Accuracy Task Force Reports.4 In this report we noted that
10 of the 13 recommendations provided in the prior report had been implemented, and
the remaining 3 were in the process of implementation, which we will discuss later in
this report.




2
 Payment Accuracy Task Force: Earnings Record Issue Team Final Report, (A-13-97-52003),
September 1997. The Payment Accuracy Task Force was created through the cooperative efforts of SSA
and the OIG to improve the accuracy of payments for SSA’s Old-Age Survivors and Disability Insurance
and Supplemental Security Income programs. To guide and support this effort, an Associate
Commissioner level Steering Committee was formed.
3
 SSA has a strategic objective, beginning in 2002 and through 2005, to maintain at 99.8 percent the
overpayment and underpayment accuracy based on non-medical factors of eligibility of Old Age Survivors
and Disability Insurance payment outlays.
4
 Status of Corrective Actions Taken in Response to Recommendations in Fiscal Years 1997 Through
2000 Payment Accuracy Task Force Reports, (A-13-01-21046), October 2002.



Title II Beneficiaries with Military Earnings (A-03-04-24049)                                        2
                                                 Results of Review
Military veterans represent approximately one out of every four Social Security
beneficiaries. A number of changes in legislation have attempted to provide these
veterans with equitable benefits when compared to the rest of the population. However,
these changes have also made the claims process more complex. Furthermore, SSA’s
own systems have limitations which complicate the benefit calculation process. While
the OIG has recommended improvements in Agency procedures for determining military
earnings and credits, these recommendations did not address previous errors. As a
result, SSA is attempting to locate beneficiaries who may have errors in their previous
benefit calculation and resolve these problems.

MILITARY VETERAN RECEIVING SSA BENEFITS
According to SSA’s Office of Policy, approximately 9.3 million military veterans were
receiving SSA benefits in 2000.5 These veterans represented about 25 percent of the
adult Social Security beneficiary population at that time. Furthermore, approximately
42 percent of all Social Security beneficiaries were either veterans or resided with family
members who were veterans. The SSA study also noted that between 1968 and 2000,
while the overall Social Security population almost doubled, the number of veterans
receiving Social Security more than quadrupled.

About 4.7 million of the veterans who receive Social Security benefits are World War II
veterans, most of whom were 75 years or older at the time of the SSA study. In
Figure 1 we provide information on military veterans receiving Social Security benefits
by the war in which they served. Figure 2 shows military veterans receiving Social
Security benefits by age.




5
 Military Veterans and Social Security, Research and Statistics Note, Note No. 2001-01, Office of
Research, Evaluation, and Statistics, SSA, February 2001.



Title II Beneficiaries with Military Earnings (A-03-04-24049)                                       3
                                          Figure 1: Military Veterans Receiving
                                       Social Security Benefits by Wartime Service
                                                   (As of March 2000)
                                                         Other
                                                         12%

                                               Vietnam
                                                  6%




                                                                                    World War II
                                                                                       51%


                                           Korean War
                                              31%




                                                   Figure 2: Military Veterans Receiving
                                                      Social Security Benefits by Age
                                                            (As of March 2000)



                                Over 84


                               Age 75-84
             Age of Veterans




                               Age 62-74

                               Age 50-61


                               Under 50

                                           0     1,000     2,000   3,000    4,000     5,000        6,000
                                                  Number of Veterans Receiving SSA Benefits
                                                            (shown in thousands)




Title II Beneficiaries with Military Earnings (A-03-04-24049)                                              4
COMPLEXITIES OF LEGAL AND REGULATORY ENVIRONMENT
Title II of the Social Security Act requires that SSA maintain records of wage amounts
employers pay to individuals as well as each individual’s self-reported income.
Members of the U.S. military were not added to the Social Security program until 1957.6
Although this allowed U.S. veterans to benefit from the program, it also raised concerns
about whether their benefits were adequate since the veterans (1) lacked military
earnings credit history prior to 1957 and (2) had lower recorded wages than other
workers in the economy.7

As a result, Congress passed a number of laws to provide military veterans with
gratuitous wage credits8 and deemed wages,9 and thereby higher retirement benefits.
For example, under the new provisions the amount added to a veteran’s earnings
records would depend on when they served in the military.

      •   Service after September 15, 1940 and before 1957: $160 per month.
      •   Service after 1956 and before 1978: $300 per quarter.
      •   Service after 1977 and before 2002: $100 per month.
      •   Service after 2001: credits eliminated.

We further describe some of these provisions in Appendix C.

Whether or not to apply a credit or deemed wages as part of the benefit calculation can
be complicated by other factors as well. For example, SSA claims representatives (CR)
processing claims may need to determine whether (1) a veteran was honorably
discharged from the military,10 (2) the service lasted at least 90 days,11 (3) the earnings
were used towards any other Federal pension,12 and/or (4) the veteran was on active
duty or annual training.13 Each of these elements can impact the benefit calculations.


6
    See Footnote 1.
7
  The recorded wages were lower, in part, because military service basic pay was very low and did not
reflect the value of food, shelter, and other benefits.
8
 Veterans are eligible for "gratuitous military wage credits" of $160 for each month of active duty if they
were on active duty in the uniformed services after September 15, 1940, and before January 1, 1957.
9
 Deemed wages are noncontributory wages added to veterans wage records who served in the military
after 1957 and had covered military earnings reported.
10
  Program Operations Manual System (POMS) reference RS 01701.060 “Pre-1957 Wage Credits –
Types of Discharge or Release.”
11
     POMS reference RS 01701.055 “Pre-1957 Wage Credits – Length of Service Requirements.”
12
     POMS reference RS 01701.080 “Bars to SSA Wage Credits.”
13
     POMS reference RS 01701.140 “[Deemed Military Wage] Requirements After 1956 But Before 2002.”


Title II Beneficiaries with Military Earnings (A-03-04-24049)                                                 5
An additional issue that must be considered is whether the military earnings were
properly posted to SSA’s earnings records. The Master Earnings File (MEF) contains
all earnings data reported by employers and self-employed individuals. However, as we
have noted, military veterans were not covered under SSA’s program until 1957, and
earnings between 1957 and 1967 do not always show sufficient detail to determine
whether the earnings relate to military service. Furthermore, sometimes military service
wages are missing from SSA’s earnings records if the name and Social Security
number combination on the reported wages does not match SSA’s records. In such
cases, the wages are posted to SSA’s Earnings Suspense File (ESF) until the earnings
can be resolved.14

In each case where military service is being developed, the military veterans or their
dependents may be required to provide evidence of military service. SSA attempts to
obtain evidence of military service from the claimant first,15 which may eliminate the
need to contact other sources. This verification may slow down the claims process if
the information is not readily available. Fortunately, SSA now has a variety of ways to
obtain the necessary military evidence. For example, SSA can query Department of
Veterans Affairs military service information via an online system.16 Furthermore, a
request for evidence can be sent to the Department of Defense.17 And, if necessary, a
local courthouse may even be able to provide the evidence. Nonetheless, this
additional work may complicate and delay the claims process.

SSA SYSTEMS LIMITATIONS
SSA has a number of systems limitations that impact the calculation of benefits for
military veterans, including (1) lack of a military identifier on earnings prior to 1968;
(2) lack of earnings detail on the Agency’s earnings system prior to 1978; and
(3) reporting problems related to military-related Employer Identification Numbers
(EIN).18




14
   For more on the ESF, see our Congressional Response Report: Status of SSA’s Earnings Suspense
File (A-03-03-23038), November 2002.
15
  To determine whether the earlier wages are military-related, the claimant may provide documentation
such as a Report of Transfer or Discharge (DD-214).
16
     This system—the Veterans Benefits Administration Query—was first introduced in May 2002.
17
  This may not be possible for some Army or Air force veterans whose records were destroyed in a fire.
The fire at the National Personnel Records Center in St. Louis, Missouri destroyed 75 to 80 percent of the
records for: Army veterans discharged before 1960 and Air Force veterans surnamed “Hubbard” through
“Z” who were discharged between September 25, 1947 and December 31, 1963.
18
  The EIN is a 9-digit number assigned by the Internal Revenue Service to sole proprietors, corporations,
partnerships, estates, trusts, and other entities for tax filing and reporting purposes.


Title II Beneficiaries with Military Earnings (A-03-04-24049)                                            6
Identifying Military Earnings Prior to 1968

Prior to 1968, military earnings were shown in SSA’s systems as regular wages rather
than military wages. As a result, military wages reported from 1957 through 1967 have
not always been properly identified and used to provide appropriate credits. Beginning
in 1968, SSA modified its systems to specifically identify military earnings to ensure
appropriate credits were automatically added to an individual’s earnings record. SSA
staff informed us that the U.S. military places an identifier on their wage reports before
sending them to SSA so that the wages can be recognized by SSA as military wages.

To resolve the issue of unidentified military wages from 1957 to 1967, SSA created the
Disability, Railroad, Alien and Military Service (DRAMS)19 file—a separate database
used to identify proven military service during this period. During the benefit claims
process, the CR requests information about military service and places beginning and
ending dates of service into DRAMS. As part of the automated benefit calculation
process, wage credits related to the periods of service shown in DRAMS, if material, are
added to the veteran’s earnings record and treated as regular covered wages for
insured status purposes. However, unlike military wages posted after 1968, military
wage credits are not automatically noted in SSA’s system when a CR performs a
manual benefit calculation. As a result, errors are more likely to occur in calculations
using this pre-1968 military wage data.

Earnings Record Details Prior To 1978

The MEF does not provide details on military earnings, or any earnings, prior to 1978.
The wages are bundled together by year earned, but details such as employer name or
EIN are not posted to each individual’s earnings history. This makes it difficult for the
CR—who may be using the earnings information to understand a worker’s earnings
history—to determine whether an individual has been credited for each year of military
service.20 If the documentation is not available, SSA may request the Office of Central
Operations (OCO) begin a process called “Feedback,”21 which is used to identify and
post the quarterly earnings detail from each employer for the requested years to SSA's
MEF.22

19
   DRAMS is an SSA file that contains information from other government agencies and prior SSA claims.
DRAMS provides information, by Social Security number, about (1) alien deportation actions from the
Immigration and Naturalization Service (now the Department of Homeland Security); (2) Japanese
internment from 1941 through 1946; (3) military service from 1940 through 1967; (4) prior periods of
disability from 1957 to present (excluding FREEZE only periods after 1977); and (5) Railroad Retirement
Board Jurisdiction information.
20
 In our 1997 report, we noted that SSA should modify policy to require review of pre-1978 military
wages.
21
  Feedback is a process used where OCO checks its microfilm files for an earnings detail of a number
holder between 1937 and 1977.
22
 If the missing earnings are not posted as the result of Feedback, SSA’s ESF can be queried. Military
wages located in the ESF can be reinstated to the earnings record.


Title II Beneficiaries with Military Earnings (A-03-04-24049)                                           7
Military Employer Identification Numbers

SSA personnel told us that hundreds of EINs have been used by the Federal
Government over the years when reporting military wages. However, SSA staff noted
that not all of the military-related EINs were properly identified in SSA’s systems nor
recognized by SSA staff. For example, some of the military wages have been reported
as regular wages under the EIN of a private company. In a recent case, SSA
discovered that a private employer’s EIN was incorrectly used by the Department of the
Army for active military reservists for the years 1958 through 1966—impacting as many
as 11,000 wage earners. As a result, appropriate credits may be missing from the
veterans’ earnings records.

SSA advised us that 1972 amendments to the Social Security Act,23 which extended
deemed wage credits to military service personnel from 1957 to 1967, introduced
several factors which have contributed to the issues faced by the Agency, including:

      •   SSA did not have a systematic way to identify military earnings already reported
          and posted for years 1957 through 1967. As a result, the Agency determined
          that the only way to administer the provision was to require claims
          representatives to obtain proof of military service and credit military service as
          part of the claims process.
      •   Until the 1972 legislation, there was no legal requirement to maintain a record of
          military earnings for the years 1957 through 1967. As a result, the systems
          limitations related to a lack of a military identifier on the earnings records prior to
          1968 and the EIN reporting issues, resulted from the retroactive application of the
          deemed military wage provision.
      •   The 1972 legislation expanded the universe of beneficiaries covered by the
          deemed military wages provisions, which contributed to the overall size of the
          problem.

STATUS OF OPEN RECOMMENDATIONS
As stated earlier, our September 1997 report24 stated that Fiscal Year 1995 military
service errors accounted for $52.6 million (30 percent) of the $166.1 million in projected
Title II retirement earnings errors. About $19.7 million in deficiencies, or 37 percent,
were caused by a lack of clear military service policies for use by the field offices.
Another $12.7 million in deficiencies, or 24 percent, related to the need for field office
staff to ensure that military wages were posted properly to the earnings record.



23
     Public Law No. 92-603, §120(a)(2).
24
 Payment Accuracy Task Force: Earnings Record Issue Team Final Report, (A-13-97-52003),
September 1997.



Title II Beneficiaries with Military Earnings (A-03-04-24049)                                  8
At the time of our October 2002 report,25 SSA had implemented 10 of the
13 recommendations we made related to military earnings. In September 2003, SSA
provided an update on the remaining three recommendations:26

      •   Automate the feedback procedure used to prove alleged military service during
          1957-1967 – SSA said resource limitations have not allowed the Agency to
          implement the change;
      •   Generate a systems alert when the claimant alleges no military service, and the
          system can identify possible military service – SSA said they will be able to
          implement this recommendation in April 2004; and
      •   Establish an intercomponent team to improve military service procedures – SSA
          said it hopes to issue revised procedures in the summer of 2004.

We provide the full text of SSA’s responses to all 13 recommendations in Appendix D.

While the recommendations we made in the 1997 report should assist SSA as it
processes future benefit claims involving military earnings, past errors are not likely to
be resolved as a result of these improvements. As a result, the military service of
veterans who applied for Social Security retirement benefits in the past may need to be
revisited to ensure benefit calculations fully considered the impact of noncontributory
wage credits and/or deemed wages.

As noted earlier, about 4.7 million of the veterans who receive Social Security benefits
are World War II veterans, most of whom were 75 years or older at the time of the
March 2000 SSA study. Furthermore, according to the Center for Disease Control and
Prevention’s National Vital Statistics Reports,27 males who had reached age 75 in the
year 2000 had an average life expectancy of approximately 10 years. Hence, the
Agency has a narrow window to correct past Social Security retirement benefits for this
elderly group of veterans.

SSA advised that most World War II veterans are not adversely affected by missing
military service wage credits. The reason is that most benefit calculations for
beneficiaries in this age group consider only earnings after 1950. Therefore, military
wage credits for the World War II era are seldom used in benefit calculations. For the
most part, only those World War II veterans who had active military service after 1950
are potentially affected by missing military credits. SSA noted that this group would
include veterans who also served in the Korean Conflict or had an extended military
career, which is a fraction of the 4.7 million World War II veterans receiving benefits.

25
  Congressional Response Report: Status of Corrective Actions Taken in Response to
Recommendations in Fiscal Years 1997 Through 2000 Payment Accuracy Task Force Reports,
(A-13-01-21046), October 2002.
26
     These were recommendations 7, 12, and 13, respectively.
27
  Deaths: Preliminary Data for 2001, National Vital Statistics Reports, Center for Disease Control and
Prevention, Department of Health and Human Services, Volume 51, Number 5, March 14, 2003.



Title II Beneficiaries with Military Earnings (A-03-04-24049)                                            9
SSA’s APPROACH TO RESOLVING MILITARY WAGE ERRORS
SSA’s Office of Quality Assurance and Performance Assessment (OQA) has a number
of ongoing efforts to identify missing noncontributory and contributory military wage
credits and determine their potential impact on current and future Title II beneficiaries.
OQA is attempting to locate military earnings errors by analyzing employer wage
reporting trends, reviewing areas known to be problematic in the past, and validating the
information in SSA’s records. As noted earlier, adjusting benefits for military earnings is
particularly difficult due to the complex statutory requirements as well as limitations
within SSA's systems.

In one of its reviews, OQA has profiled a 1 percent sample of individuals currently
receiving Title II payments on SSA’s Master Beneficiary Record (MBR) 28 to identify
those individuals most likely to have served in the U.S. military.29 For example, if an
individual’s MEF record showed 3 years of military service, from 1968 to 1970, and
detail on the earnings before 1968 was never added to the MEF, the record might be
selected for further review to ensure the early earnings did not also relate to military
service.

Once it identified this group with military service, OQA recalculated benefits for those
cases where it appeared relevant military wages and/or qualifying credits were not
taken into account as part of their initial benefit computation. Changes due to these
recalculations were immediately posted to the beneficiary’s account. This military
service profiling will be used to extract all potential records from SSA's MBR for further
investigation and possible benefit recalculation.

In the months to come, OQA will expand this review to more cases to properly quantify
the full impact on retired and disabled beneficiaries, as well as any auxiliary
beneficiaries on their record. Such a review will entail additional resources to (1) obtain
feedback on wages prior to 1978 and (2) recalculate benefits where wages and/or
credits were not properly included.

Additional efforts by OQA may involve reviewing the military EINs used in SSA’s MEF,
verifying SSA’s military information against other government databases, and/or
determining additional profiling techniques to find earnings errors. We asked SSA for
both an early estimate of underpayments and/or overpayments related to current and
planned projects, but were told by Agency staff that this information was not yet
available. However, based on early indications, OQA expects underpayments related to
military earnings to be considerably larger than overpayments.

28
  The MBR is an electronic file containing information related to SSA beneficiaries’ retirement, survivors,
or disability benefits.
29
  Some military service performed in foreign militaries might also qualify for military credits. For example,
service in the Philippines military may make an individual eligible for credits. See 20 C.F.R. §§
404.1312(d)-(e) and 404.1322(d).


Title II Beneficiaries with Military Earnings (A-03-04-24049)                                             10
                                                                Conclusions
Military veterans represent a large number of Social Security beneficiaries. The
complexity of the credits and deemed wages, as well as system limitations, also make
determining benefits for this group difficult at times. While past OIG recommendations
can help with future calculations, past errors will need to be resolved through OQA’s
efforts to identify beneficiaries with errors in their previous benefit calculations.

SSA should be commended for its proactive approach in this area. Regardless of the
complexities involved in implementing legislative mandates, military veterans are
entitled to full credit for the service they provided to the United States. Based on
projections in the 1997 review, military earnings errors in Fiscal Year 1995 caused
approximately $52 million in payment errors. If similar errors have occurred over the
years, the impact of these errors could have a significant impact on benefit
computations. Furthermore, since many of the veterans who may be impacted by these
recalculations are among the Agency’s older beneficiaries, SSA management will need
to ensure sufficient resources are made available to expedite OQA’s work.

We will continue to monitor the Agency’s progress in this area to ensure military service
is properly credited to past and future Title II beneficiaries.




Title II Beneficiaries with Military Earnings (A-03-04-24049)                          11
                                          Appendices
  Appendix A – Acronyms
  Appendix B – Scope and Methodology
  Appendix C – Selected Legal Provisions Related to Military Earnings
   Appendix D – Status of Previous Payment Accuracy Task Force
                Recommendations




Title II Beneficiaries with Military Earnings (A-03-04-24049)
                                                                             Appendix A

Acronyms
     C.F.R.              Code of Federal Regulations

     CR                  Claims Representative

     DMW                 Deemed Military Wages

     DRAMS                Disability, Railroad, Alien and Military Service

     EIN                 Employer Identification Number

     EMS                 Earnings Modernization System

     ESF                  Earnings Suspense File

     MBR                 Master Beneficiary Record

     MCS                 Modernized Claims System

     MEF                 Master Earnings File

     OCO                 Office of Central Operations

     OIG                 Office of the Inspector General

     OQA                 Office of Quality Assurance and Performance Assessment

     POMS                Program Operations Manual System

     SSA                  Social Security Administration

     U.S.C.              United States Code




Title II Beneficiaries with Military Earnings (A-03-04-24049)
                                                                       Appendix B

Scope and Methodology
To answer the Chairman’s questions related to Social Security Administration (SSA)
benefits paid to military veterans, we:

   •   Reviewed legislation related to the treatment of military earnings.

   •   Reviewed SSA’s policies and procedures regarding military earnings.

   •   Reviewed earlier reports and studies related to military earnings.

   •   Met with SSA officials to discuss the military earnings process, including Office of
       Quality Assurance and Performance Assessment staff to discuss the status of
       work to resolve past military earnings errors.

The entity responsible for processing Social Security benefits are the field offices under
the Deputy Commissioner for Operations. Our work was conducted at the Office of
Audit in Philadelphia, Pennsylvania, during September and October 2003. We
conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections.




Title II Beneficiaries with Military Earnings (A-03-04-24049)
                                                                                  Appendix C

Selected Legal Provisions Related to Military
Earnings
         Social Security Act                          Wording of Provisions
            Provisions
    Section 217(a), (d) and (e) of the   Noncontributory wage credits of $160 per month are
    Social Security Act, as amended,     deemed to veterans under certain conditions in
    [42 U.S.C. §§ 417(a), (d) and (e)]   connection with active military service between
                                         September 16, 1940 and December 31, 1956.
    Section 229(a) of the Social         Extends wage credits of $300 in each calendar
    Security Act, as amended, [42        quarter of military service occurring after 1956 and
    U.S.C. 429(a)]                       before 1978.

                                         Extends wage credits of $100 for service occurring
                                         after 1977 for each $300 of military pay. The
                                         deemed military wages cannot exceed $1,200 per
                                         calendar year.1

                                         Deemed military wages (DMW) were eliminated for
                                         members of the uniformed services for all years after
                                         Calendar Year 2001.2




1
  Program Operations Manual System, section RS 01702.336 “Crediting DMWs for Years After 1977 But
Before 2002”, DMWs after 1977 but before 2002 are granted in increments of $100 up to a maximum of
$1,200, and are added automatically to the earnings record. For each full $300 of annually reported
wages, an increment of $100 of DMWs is granted (up to the $1,200 maximum). DMWs are credited to
the year for which the wages were reported.
2
 FN 218 of Section 229(a) of the Social Security Act, as amended, [42 U.S.C. 429(a)]; See also Public
Law No. 107-117, § 8134.


Title II Beneficiaries with Military Earnings (A-03-04-24049)
                                                                               Appendix D

Status of Previous Payment Accuracy Task
Force Recommendations
Status Information Provided by the Social Security Administration (SSA)

                                Condition at Time
 Recommendation               Recommendation Made                              Status
Recommendation 1:         Current policy requires claims         As of June 2002 – Implemented.
Modify policy to          representatives (CR) to review a       The Wage Development chapter
require review of pre-    claimant's earnings records for        of SSA's operating procedures
1978 military wages.      possible earnings inaccuracies for     was rewritten to include a review
                          the years 1978 to 2001. It is not a    of pre-1978 military wages. The
                          requirement for years before           expected completion date was
                          1978. As a result, pre-1978            November 2001. In June 1999,
                          military service wages needed for      SSA implemented military service
                          benefit computation were               on-line help screens to provide
                          frequently overlooked.                 guidance to claims
                                                                 representatives in obtaining
                                                                 military service evidence. The
                                                                 screens included guidance
                                                                 regarding review of pre-1978
                                                                 military wages.
Recommendation 2:         CRs refer to military wage tables      As of June 2002 – Implemented.
Improve the               in their operating procedures to       In September 1997, the
presentation quality of   obtain basic pay scales for years      presentation quality of the military
the military service      of service for the various military    service wage tables was
wage tables.              ranks. This information is used in     improved.
                          benefit computation. CRs found
                          the tables difficult to use—as parts
                          of the table were completely
                          illegible.
Recommendation 3:         Claimants frequently disagree with     As of June 2002 – Implemented.
Print the claimant's      the military service dates used in     In June 1999, SSA's operating
statement regarding       their benefit computations. To         procedures were revised to
periods of military       ensure the correct information is      include this information and the
service on the            used in the computation, the           Modernized Claims System (MCS)
application.              claimant's periods of military         was modified to document the
                          service need to be generated in a      claimant's statement regarding
                          printed application to provide them    periods of military service on the
                          with an opportunity to review the      application. MCS is an automated
                          information.                           system used to input Title II claims
                                                                 related data.




Title II Beneficiaries with Military Earnings (A-03-04-24049)                                    D-1
                                Condition at Time
 Recommendation               Recommendation Made                             Status
Recommendation 4:         CRs indicated there are often so       As of June 2002 – Implemented.
Generate a reminder       many development issues to             As part of the MCS update in
on the development        consider when processing a claim,      September 1998, a reminder is
worksheet to prompt       it is possible to overlook             now generated for CRs to initiate
claims representatives    development of military service.       military service development.
to initiate military      Many CRs use the MCS
service development.      development worksheet to ensure
                          claims are developed and
                          documented. However, military
                          service evidence is not shown on
                          the worksheet.
Recommendation 5:         CRs can award benefits so a            As of June 2002 – Implemented.
Generate a diary when     claimant receives partial benefits     The generation of a diary was
military service is       until military service evidence is     included in the November 2000
alleged and the claim     received. If a diary is not            MCS update. When military
is being adjudicated.     established to control receipt of      service evidence is not readily
                          the evidence, the claimant may         available, CRs can award partial
                          not receive the appropriate military   benefits until evidence of military
                          service credit.                        service is received. An automated
                                                                 systems diary has been
                                                                 established to remind CRs to
                                                                 develop military service evidence.
Recommendation 6:         "Scouting" is the process              As of June 2002 – Implemented.
Correct "scouting" and    previously used by CRs to              The operating procedures were
"feedback"                research an allegation of incorrect,   revised in September 1998 to
terminology in            missing or under/overstated            change the term "scouting" to
operating procedures.     earnings where an employer is          "feedback."
                          known. With the advent of the
                          Earnings Modernization System
                          (EMS) Release 2.8, the process
                          became automated and is now
                          referred to as "Feedback."
Recommendation 7:         For CRs to obtain Feedback             As of August 2003 – Pending.
Automate the              information, they must exit the on-    The automated Feedback
Feedback procedure        line claims taking process and         procedure used to prove alleged
used to prove alleged     enter the EMS. By incorporating        military service during 1957 to
military service during   the Feedback procedure into the        1967 was scheduled to be
1957-1967.                claims taking process, CRs have        included in the MCS
                          the discretion to obtain Feedback      enhancements scheduled for
                          while discussing military service      2002. Due to resource limitations,
                          evidence with the claimant.            SSA was unable to implement this
                                                                 change in 2002. The Agency is in
                                                                 the process of reprioritizing many
                                                                 workloads that require systems
                                                                 resources. This will help SSA to
                                                                 more accurately determine when
                                                                 the automated Feedback
                                                                 procedure may be implemented.



Title II Beneficiaries with Military Earnings (A-03-04-24049)                                   D-2
                                Condition at Time
 Recommendation               Recommendation Made                              Status
Recommendation 8:         CRs indicated they found military      As of June 2002 – Implemented.
Educate claims            policies and procedures difficult to   In March and April 2000, an
representatives on        interpret and follow. Additional       interactive video training focused
specific military         training is needed on the proper       entirely on military service
service procedures.       use of military service codes,         procedures.
                          when and how to use military
                          service tables, when it is
                          appropriate to request feedback,
                          and how feedback differs from the
                          "scouting" (now "Feedback")
                          process.
Recommendation 9:         Several CRs indicated they found       As of June 2002 – Implemented.
Include "County           it more expedient to obtain military   In June 1998, SSA operating
Courthouses" as           service records from a courthouse      procedures were revised to
another potential         than to wait for evidence              emphasize "County Courthouses"
source for military       requested from a branch of the         as another potential source for
service proofs.           military service. Local                obtaining proof of military service.
                          courthouses maintain copies of
                          veterans' discharge papers—the
                          preferred evidence for proof of
                          military service.
Recommendation 10:        Post-1956 military service can be      As of June 2002 – Implemented.
Implement an on-line      used in calculating Social Security    As part of the June 1999 MCS
edit to prevent the       benefits unless the Railroad           update, an edit was incorporated
incorrect use of the      Retirement Board has given credit      into the screen for Military Service
proof code "precluded"    for the same service. This edit is     to prevent incorrect use of the
used for post-1956        to prevent CRs from giving the         proof code "precluded" for post-
military service.         claimant credit for post-1956          1956 military service.
                          military service until they check
                          that the Railroad Retirement
                          Board has not given the claimant
                          credit.
Recommendation 11:        CRs were not identifying all           As of June 2002 – Implemented.
Revise the military       periods of military service. They      Language is being incorporated in
service question on       were not specifically asking the       the latest MCS update to solicit
MCS to solicit            claimants about active reserve or      information regarding active
additional information    National Guard service.                reserve and National Guard
regarding active                                                 service.
reserve and National
Guard service.




Title II Beneficiaries with Military Earnings (A-03-04-24049)                                    D-3
                                Condition at Time
 Recommendation               Recommendation Made                             Status
Recommendation 12:        For survivors' claims, the claimant   As of August 2003 – Pending.
Generate a systems        sometimes does not or cannot          Beginning with Title II Redesign
alert when the            remember that the Social Security     Release 3 (April 2004), if military
claimant alleges no       numberholder served in the            service has been proven and
military service, and     military. SSA has a database of       appears on Disability, Railroad,
the system can            military service information          Alien and Military Service System,
identify possible         obtained when a prior claim was       the information will be propagated
military service.         filed. An alert was needed in MCS     to MCS military service screens.
                          to notify CRs of the existence of     If it is only alleged and is only on
                          military service evidence.            EMS, SSA will not generate an
                                                                alert.
Recommendation 13:        CRs were confused by SSA's            As of August 2003 – Pending.
Establish an inter-       policies and procedures and found     Due to legislation and other
component team to         them difficult to interpret and       priority work, this recommendation
improve military          follow.                               has not been completed.
service procedures.                                             Legislation in the military service
                                                                area requires drafting regulations
                                                                and then making corresponding
                                                                changes to SSA’s Program
                                                                Operations Manual System
                                                                (POMS). The Agency expects the
                                                                revised POMS will be completed
                                                                and released in Summer 2004.




Title II Beneficiaries with Military Earnings (A-03-04-24049)                                   D-4
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
